Nos. 19-267 and 19-348

In the Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL, PETITIONER
v.
AGNES MORRISSEY-BERRU
ST. JAMES SCHOOL, PETITIONER
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE UNITED STATES
AS AMICUS CURIAE SUPPORTING PETITIONERS

SHARON FAST GUSTAFSON
General Counsel
RACHEL N. MORRISON
Attorney
Equal Employment
Opportunity Commission
Washington, D.C. 20507

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
ERIC S. DREIBAND
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
ALEXANDER V. MAUGERI
Deputy Assistant Attorney
General
MORGAN L. RATNER
MICHAEL R. HUSTON
Assistants to the Solicitor
General
ERIC W. TREENE
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether the Free Exercise and Establishment
Clauses of the U.S. Constitution prevent civil courts
from adjudicating employment-discrimination claims
brought by former employees at religious schools who
provided religious instruction.

(I)

TABLE OF CONTENTS

Page
Interest of the United States....................................................... 1
Statement ...................................................................................... 2
Summary of argument ................................................................. 7
Argument....................................................................................... 9
A. The First Amendment prohibits governmental
interference with ecclesiastical appointments .......... 10
B. The ministerial exception extends to any
employee of a religious organization who
performs an important religious function ................. 13
1. Hosanna-Tabor recognized a ministerial
exception grounded in the Religion Clauses’
special solicitude for religious functionaries ..... 15
2. The ministerial exception applies when an
employee’s job duties or other facts show
that the employee performs an important
religious function.................................................. 16
C. The ministerial exception bars respondents’
employment-discrimination claims ............................ 22
D. The counterarguments advanced by the court
of appeals and respondents lack merit ...................... 26
Conclusion ................................................................................... 35
TABLE OF AUTHORITIES

Cases:
Cannata v. Catholic Diocese of Austin, 700 F.3d 169
(5th Cir. 2012) ...................................................................... 14
Corporation of the Presiding Bishop of the Church
of Jesus Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987).............................................................. 20
Fratello v. Archdiocese of New York, 863 F.3d 190
(2d Cir. 2017) ....................................................................... 14

(III)

IV
Cases—Continued:

Page

Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. EEOC, 565 U.S. 171 (2012) ........................... passim
Gonzalez v. Roman Catholic Archbishop of Manila,
280 U.S. 1 (1929) ........................................................... 13, 31
Kedroff v. Saint Nicholas Cathedral of the Russian
Orthodox Church in N. Am., 344 U.S. 94
(1952) .................................................................. 12, 18, 32, 33
Lee v. Sixth Mount Zion Baptist Church of
Pittsburgh, 903 F.3d 113 (3d Cir. 2018) ...................... 14, 30
National Labor Relations Bd. v. Catholic Bishop
of Chicago, 440 U.S. 490 (1979) ................................... 13, 30
Serbian E. Orthodox Diocese for the U.S. & Canada
v. Milivojevich, 426 U.S. 696 (1976) .................................. 13
Sterlinski v. Catholic Bishop of Chicago,
943 F.3d 568 (7th Cir. 2019) ................................... 14, 20, 28
Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012 (2017) ............................................ 34
Watson v. Jones, 80 U.S. (13 Wall.) 679 (1872) ............. 12, 32
Constitution and statutes:
U.S. Const.:
Amend. I .................................................................. passim
Establishment Clause ..........................8, 11, 15, 17, 29
Free Exercise Clause ...........................8, 11, 15, 17, 29
Age Discrimination in Employment Act of 1967,
29 U.S.C. 621 et seq. .............................................................. 5
Americans with Disabilities Act of 1990,
42 U.S.C. 12101 et seq. .......................................................... 6
Civil Rights Act of 1964, Tit. VII, 42 U.S.C. 2000e
et seq. .................................................................................... 29
42 U.S.C. 2000e-1(a) ........................................................ 29
42 U.S.C. 2000e-2(e) ........................................................ 29

V
Statute—Continued:

Page

National Labor Relations Act, 29 U.S.C. 151 et seq........... 13
Miscellaneous:
4 William Blackstone, Commentaries on the Laws
of England (8th ed. 1778) ................................................... 11
Catechism of the Catholic Church (2d ed. May 2016) ........ 22
Sanford H. Cobb, The Rise of Religious Liberty
in America (1902) ............................................................... 11
2 Thomas Hughes, History of the Society of Jesus
in North America: Colonial and Federal (1917) ........... 11
3 Charles Z. Lincoln, The Constitutional History
of New York (1906) ............................................................. 11
Michael W. McConnell, Establishment and
Disestablishment at the Founding, Part I:
Establishment of Religion, 44 Wm. & Mary
L. Rev. 2105 (2003) ............................................................. 10
Southern Baptist Convention, Position Statements,
http://www.sbc.net/aboutus/positionstatements.asp
(last visited Feb. 10, 2020) ................................................. 31

In the Supreme Court of the United States
No. 19-267
OUR LADY OF GUADALUPE SCHOOL, PETITIONER
v.
AGNES MORRISSEY-BERRU
NO. 19-348
ST. JAMES SCHOOL, PETITIONER
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE UNITED STATES
AS AMICUS CURIAE SUPPORTING PETITIONERS

INTEREST OF THE UNITED STATES

The United States has substantial interests in preserving the free exercise of religion and ensuring that
the federal government avoids a prohibited establishment of religion. The Equal Employment Opportunity
Commission (EEOC) participated in the proceedings
below in No. 19-348 as amicus curiae supporting
respondent. The United States has also participated in

(1)

2
other cases concerning the First Amendment’s ministerial exception, including Hosanna-Tabor Evangelical
Lutheran Church & School v. EEOC, 565 U.S. 171 (2012).
STATEMENT

Petitioners are two private Catholic primary schools.
19-267 Pet. App. 5a; 19-348 Pet. App. 4a. Respondents
are (or represent) former employees of the schools who
provided religious instruction. 19-267 Pet. App. 3a, 5a;
19-348 Pet. App. 5a. When respondents brought federal
employment-discrimination claims against the schools,
district courts dismissed the claims pursuant to the
First Amendment’s “ministerial exception,” applying
this Court’s decision in Hosanna-Tabor Evangelical
Lutheran Church & School v. EEOC, 565 U.S. 171 (2012).
19-267 Pet. App. 4a-9a; 19-348 Pet. App. 69a-74a. The
court of appeals reversed. 19-267 Pet. App. 1a-3a;
19-348 Pet. App. 1a-39a.
1. Our Lady of Guadalupe School and St. James
School are both private Catholic primary schools in California. 19-267 Pet. App. 5a; 19-348 Pet. App. 78a. Both
schools are affiliated with Roman Catholic parishes.
19-267 Pet. App. 13a-14a; 19-348 Pet. App. 79a. And
both are under the jurisdiction of the Roman Catholic
Archdiocese of Los Angeles. 19-267 Pet. App. 5a; 19-348
Pet. App. 4a.
Agnes Morrissey-Berru was formerly employed by
Our Lady, starting in 1998 as a substitute teacher, then
as a full-time sixth-grade teacher and later as a fifthgrade teacher. 19-267 Pet. App. 5a. Kristen Biel was
employed by St. James from 2013 to 2014, first as a

3
long-term substitute teacher and then as a full-time
fifth-grade teacher. 19-348 Pet. App. 4a. 1
Both schools publicly commit to providing an education that is based on Catholic religious formation. Our
Lady describes its faculty and staff as “striving to create
a spiritually enriched learning environment, grounded in
Catholic social teachings, values and traditions.” 19-267
Pet. App. 8a (citation omitted). Our Lady further states
that its faculty and staff will “utilize [their] educational
training, skills, talents, and model [their] faith so that
students are taught the fundamentals of a spiritual life,”
in addition to “academic achievement” and other values.
Id. at 43a. St. James states that its “mission” is “to develop and promote a Catholic School Faith Community
within the philosophy of Catholic education as implemented at the School, and the doctrines, laws and norms
of the Catholic Church.” 19-348 Pet. App. 96a.
The schools’ commitment to providing Catholic education is reflected in their teacher employment agreements, which both respondents signed. 19-267 Pet.
App. 32a-42a; 19-348 Pet. App. 96a-105a. As relevant
here, each respondent’s employment agreement stated
that teachers “shall” perform “[a]ll [their] duties and
responsibilities * * * with [the] overriding commitment” to “develop and promote a Catholic School Faith
Community within * * * the doctrines, laws and norms
of the Roman Catholic Church.” 19-267 Pet. App. 32a;
see 19-348 Pet. App. 96a. The agreements required
respondents to “acknowledge” that the schools “operate
within the philosophy of Catholic education,” and that
teachers “are expected to model, teach, and promote
Kristen Biel passed away on June 7, 2019. 19-348 Br. in Opp. 1
n.1. Her husband Darryl Biel, as personal representative of her
estate, was substituted as a party to this case. Ibid.
1

4
behavior in conformity to the teaching of the Roman
Catholic Church.” 19-348 Pet. App. 97a; see 19-267 Pet.
App. 32a-33a. Teachers are also required to “participate in * * * School liturgical activities.” 19-267 Pet.
App. 33a; 19-348 Pet. App. 97a.
Respondents’ work at the schools involved significant responsibility for providing religious instruction to
students. Both respondents taught their students religion four or five days a week, in addition to secular subjects. 19-267 Pet. App. 90a; 19-348 Pet. App. 5a. In both
respondents’ classrooms, those lessons conveyed topics
such as Catholic doctrine, Catholic sacraments, Catholic signs and symbols, Catholic prayers, the lives of
Catholic saints, and Catholic interpretations of scripture. 19-267 Pet. App. 91a-94a; 19-348 Pet. App. 5a, 70a,
81a-83a. In addition, both respondents prepared their
students to participate in Catholic prayer, worship, and
sacraments, and respondents themselves routinely participated in those religious observances alongside their
students. Morrissey-Berru taught students “how to go
to [M]ass, the parts of the [M]ass, communion, prayer,
and confession.” 19-267 Pet. App. 81a. She also led her
students in prayer every day, and helped plan the liturgy for one Mass per month. Id. at 83a. Biel prayed
prayers such as the Lord’s Prayer and the Hail Mary
with her students every day, and she attended school
Masses with her students twice a month at which she
prayed along with them. 19-348 Pet. App. 93a-96a.
Respondents’ continued employment at the schools
depended on, among other things, the “nature and
effectiveness of [their] performance” at modeling,
teaching, and demonstrating commitment to the Catholic faith. 19-267 Pet. App. 55a (emphasis omitted); see

5
19-348 Pet. App. 97a. The schools evaluated respondents on whether they effectively “infused” Catholic values “through all subject areas” in their curriculum, and
displayed Catholic “sacramental traditions” in the
classroom. 19-267 Pet. App. 23a-24a; see 19-348 Pet.
App. 82a-84a.
2. a. For the 2014-2015 school year, the principal of
Our Lady moved Morrissey-Berru from a full-time
teaching position to a part-time position, and the next
year the school did not renew her contract. 19-267 Pet.
App. 5a, 29a-31a. Our Lady contends that it made those
decisions based on Morrissey-Berru’s teaching performance, Pet. Br. 15, whereas Morrissey-Berru contends
that the school discriminated against her based on age,
19-267 Pet. App. 4a.
Morrissey-Berru filed a charge of age discrimination
with the EEOC, and she later sued Our Lady under the
Age Discrimination in Employment Act of 1967 (ADEA),
29 U.S.C. 621 et seq. See 19-267 Pet. App. 4a. The district court dismissed her suit as barred by the ministerial exception. Id. at 6a-9a. The court found it uncontested that Our Lady qualifies as a religious institution,
id. at 7a, and the court further found that MorrisseyBerru was responsible for “integrating Catholic values
and teachings into all of her lessons,” as well as “[teaching] her students the tenets of the Catholic religion
[and] how to pray,” id. at 8a.
The court of appeals reversed. 19-267 Pet. App.
1a-3a. The court agreed with the district court that
Morrissey-Berru “ha[d] significant religious responsibilities as a teacher at” Our Lady, but also concluded
that she did not publicly hold herself out as a “religious
leader or minister” and that she had less formal religious training than Cheryl Perich, the Evangelical

6
Lutheran school teacher at issue in Hosanna-Tabor.
Id. at 2a-3a. The court therefore held that, “on balance,”
the ministerial exception did not apply to MorrisseyBerru’s ADEA claim. Id. at 3a.
b. At the end of the 2013-2014 school year, Biel
informed the principal of St. James that she had breast
cancer and needed time off to undergo surgery and
chemotherapy. 19-348 Pet. App. 6a. A few weeks later,
the principal told Biel that her teaching contract would
not be renewed, citing as reasons “that Biel’s ‘classroom
management’ was ‘not strict’ and that ‘it was not fair . . .
to have two teachers for the children during the school
year.’ ” Id. at 6a-7a.
After filing a charge of discrimination based on disability with the EEOC, Biel sued St. James under the
Americans with Disabilities Act of 1990 (ADA),
42 U.S.C. 12101 et seq. See 19-348 Pet. App. 7a; Pet. Br.
20. As in Morrissey-Berru’s case, the district court dismissed Biel’s claim as barred by the ministerial exception. 19-348 Pet. App. 69a-74a. The court saw “no dispute” that St. James is a “religious institution,” id. at
71a, and the court found that Biel “sought to carry out
St. James’s Catholic mission,” including by incorporating “Catholic teachings into all of her lessons,” id.
at 73a.
A divided panel of the court of appeals reversed.
19-348 Pet. App. 1a-39a. The court stated that Biel resembled Cheryl Perich “[o]nly” insofar as they both
taught religion as part of their job duties, id. at 12a, and
the court declined to apply the ministerial exception
where, in its view, “only one” of the considerations that
this Court had found relevant in Hosanna-Tabor was
present, id. at 15a. The court also concluded that Biel’s
responsibilities for religious instruction—which the

7
court described as “limited to teaching religion from a
book required by the school and incorporating religious
themes into her other lessons,” as well as taking students to Mass where her “only” responsibility was to
keep them “quiet and in their seats”—“do not amount
to the kind of close guidance and involvement that
Perich had in her students’ spiritual lives.” Id. at 13a.
Judge D. Michael Fisher (sitting by designation) dissented. 19-348 Pet. App. 17a-39a. He reasoned that
“Biel’s duties as the fifth grade teacher and religion
teacher are strikingly similar” to Perich’s duties in
Hosanna-Tabor, id. at 32a, and he emphasized the
importance of the role that Biel played in teaching the
Catholic faith to the next generation, id. at 31a-34a.
Judge Fisher rejected Biel’s contention that she had
“executed her duties in a secular manner,” because that
“directly conflicts” with her contractual agreement to
infuse Catholic thought throughout her lessons and to
“personally demonstrate her faith.” Id. at 33a-34a.
The court of appeals denied St. James’s petition for
rehearing en banc over the dissent of nine judges.
19-348 Pet. App. 40a-67a. The dissent argued that the
panel’s decision had “embrace[d] the narrowest construction of the First Amendment’s ‘ministerial exception’ and split[ ] from the consensus of ” other courts of
appeals which hold “that the employee’s ministerial
function should be the key focus.” Id. at 42a.
SUMMARY OF ARGUMENT

A. The First Amendment was adopted against the
backdrop of a history of governmental interference with
religious groups, including interference in religious
education. Since ratification, this Court has consistently interpreted the First Amendment to prohibit the

8
government from intruding on ecclesiastical decisions,
including the appointment of religious functionaries.
B. Consistent with that national tradition of governmental non-interference with religion, this Court’s decision in Hosanna-Tabor Evangelical Lutheran Church
& School v. EEOC, 565 U.S. 171 (2012), recognized that
the First Amendment does not allow employmentdiscrimination lawsuits brought against religious
organizations by employees who personify the organization’s beliefs, shape its faith and mission, or minister
to the faithful. The Court held that the ministerial exception is not limited to ordained clergy or congregation
leaders, and can apply to persons who perform a mix of
secular and religious functions.
The Court’s decision in Hosanna-Tabor, and the
purposes of the First Amendment’s Religion Clauses,
support applying the ministerial exception to any
employee of a religious organization who performs an
important religious function. In particular, the ministerial exception should apply to any employee who
preaches a church’s beliefs, teaches its faith, or carries
out its religious mission, because the independence of
virtually all religious groups depends on the government’s avoiding interference in those religious matters.
In close cases, facts that demonstrate a religious organization sincerely regards its employee as performing
such important religious functions should be dispositive.
C. The record here leaves no doubt that both respondents performed important religious functions at
the Catholic schools where they were formerly employed. Each teacher was hired to personify the Catholic Church’s beliefs and transmit the Catholic faith to
the next generation. Respondents were required to
perform those ecclesiastical responsibilities by teaching

9
Catholic doctrines and lessons, as well as by modeling
the Catholic faith and helping students learn to practice it.
D. Respondents and the Ninth Circuit offer no
sound basis for declining to apply the ministerial exception in these cases. The court of appeals misread
Hosanna-Tabor to require a four-factor test for applying the ministerial exception, instead of focusing primarily on the purposes of the First Amendment and the
important religious functions that respondents performed. And the court’s conclusion that respondents, as
religious-school teachers, did not have meaningful involvement in students’ spiritual lives disregards the
facts that respondents were required to incorporate the
Catholic faith throughout their lessons, as well as to
model the Catholic faith and foster its growth in students.
Contrary to respondents’ suggestion, the ministerial
exception does not depend on whether a religious
organization requires the employee to be a “member” of
the “same” faith. Imposing that requirement as a precondition for the ministerial exception would defeat the
First Amendment’s purposes by not leaving religious
organizations free to set the qualifications for those who
advance their faiths and missions. A “members only”
test would also disadvantage minority religious groups,
and it would force courts to weigh in on religious questions that this Court has long interpreted the First
Amendment to require them to avoid.
ARGUMENT

In Hosanna-Tabor Evangelical Lutheran Church &
School v. EEOC, 565 U.S. 171 (2012), this Court held
that the First Amendment safeguards the right of a
religious organization, free from interference by civil

10
authorities, to select those who will “personify its beliefs,” “shape its * * * faith and mission,” or “minister
to the faithful.” Id. at 188-189. The First Amendment
accordingly does not allow employment-discrimination
claims brought against religious organizations by employees who perform an “important religious function[ ].” Id. at 192; see id. at 188-189. Because respondents here, as former Catholic-school teachers, “performed
an important role in transmitting [their Church’s] faith
to the next generation,” id. at 192, the First Amendment precludes their employment-discrimination
claims against their religious employers.
A. The First Amendment Prohibits Governmental
Interference With Ecclesiastical Appointments

The First Amendment provides that “Congress shall
make no law respecting an establishment of religion, or
prohibiting the free exercise thereof.” U.S. Const.
Amend. I. “Both Religion Clauses bar the government
from interfering with” a church’s appointment of persons
performing ecclesiastical functions. Hosanna-Tabor,
565 U.S. at 181.
1. Before the Revolution, one “principal means of
government control” over the established church had
been laws conferring “the power to appoint prelates and
clergy,” prompting “continual conflicts between clergymen, royal governors, local gentry, towns, and congregants over the qualifications and discipline of ministers.” Michael W. McConnell, Establishment and Disestablishment at the Founding, Part I: Establishment
of Religion, 44 Wm. & Mary L. Rev. 2105, 2132, 2137
(2003); see Hosanna-Tabor, 565 U.S. at 182-183.
During that period, some governmental attempts to
control religion extended to religious education. A 1704
Maryland law, for example, “prohibited any Catholic

11
priest or lay person from keeping school, or taking upon
himself the education of youth.” 2 Thomas Hughes,
History of the Society of Jesus in North America:
Colonial and Federal 443-444 (1917). In 1771, the royal
government’s commission and instructions to William
Tryon, the newly appointed Governor of New York,
required all schoolmasters to obtain a license from the
Bishop of London. 3 Charles Z. Lincoln, The Constitutional History of New York 485, 745 (1906). And a 1774
New York law ordered that “no vagrant Preacher,
Moravian, or disguised Papist, shall Preach or Teach,
Either in Public or Private,” without first taking an oath
and obtaining a license. Sanford H. Cobb, The Rise of
Religious Liberty in America 358 (1902). Those colonialera restrictions followed the tradition of the English
common law, which took aim at Catholic religious education by holding that “[p]ersons professing the popish
religion * * * may not keep or teach any school under
pain of perpetual imprisonment,” and by imposing civil
penalties on “any person [who] sends another abroad to
be educated in the popish religion, * * * or [who] contributes to their maintenance when there.” 4 William
Blackstone, Commentaries on the Laws of England
55-56 (8th ed. 1778).
Those experiences of religious strife and persecution
cumulatively formed the “background” for the adoption
of the First Amendment. Hosanna-Tabor, 565 U.S. at
183. “Familiar with life under the established Church
of England, the founding generation” adopted the First
Amendment’s Religion Clauses, which together “ensured that the new Federal Government—unlike the
English Crown—would have no role in filling ecclesiastical offices.” Id. at 183-184. “The Establishment Clause
prevents the Government from appointing ministers,

12
and the Free Exercise Clause prevents it from interfering with the freedom of religious groups to select their
own.” Ibid.
2. Since ratification, the constitutional requirement
of governmental non-interference in ecclesiastical
appointments has not been limited to ordained clergy or
congregation leaders—the sense in which the term
“minister” is “commonly used by many Protestant
denominations” but rarely used by Catholics, Jews,
Muslims, or members of many other faiths. HosannaTabor, 565 U.S. at 198 (Alito, J., concurring); see id. at
190 (majority opinion). Instead, the American national
tradition reflects a broader principle that the government must respect, in James Madison’s words, “the
essential distinction between civil and religious functions.” Id. at 185 (citation omitted). Accordingly, when
John Carroll, the first Catholic bishop in the United
States, wrote to the Jefferson administration in 1806 to
solicit its opinion on who should be appointed to direct
the affairs of the Catholic Church in the territory newly
acquired by the Louisiana Purchase, “then-Secretary of
State Madison responded that the selection of church
‘functionaries’ was an ‘entirely ecclesiastical’ matter
left to the Church’s own judgment.” Id. at 184 (emphasis added; citation omitted).
This Court’s precedents have likewise recognized a
broad principle of governmental non-interference with
the functioning of religious entities. The Court has held
that the government, including the civil courts, must not
supersede decisions of religious bodies on matters of
church governance, religious qualification, property
usage, religious discipline, or faith and doctrine. See
Hosanna-Tabor, 565 U.S. at 185-187 (discussing Watson v. Jones, 80 U.S. (13 Wall.) 679 (1872); Kedroff v.

13
Saint Nicholas Cathedral of the Russian Orthodox
Church in N. Am., 344 U.S. 94 (1952); and Serbian E.
Orthodox Diocese for the U.S. & Canada v. Milivojevich, 426 U.S. 696 (1976)); Gonzalez v. Roman Catholic Archbishop of Manila, 280 U.S. 1, 16 (1929). Other
courts have similarly recognized the need to avoid resolving religious questions or intruding on religious
matters. See Pet. Br. 29-33.
This Court has also recognized that the Constitution
places limits on the government’s authority to direct the
affairs of religious schools. In National Labor Relations Board v. Catholic Bishop of Chicago, 440 U.S. 490
(1979), the Court held that the National Labor Relations Act, 29 U.S.C. 151 et seq., did not apply to teachers
employed by religiously affiliated high schools, 440 U.S.
at 506-507, in part out of concern that applying the Act
to those teachers would cause governmental “entanglement with the religious mission of the school,” id. at 502.
B. The Ministerial Exception Extends To Any Employee
Of A Religious Organization Who Performs An
Important Religious Function

In Hosanna-Tabor, this Court built on the national
tradition of religious liberty for religious functionaries
and on its own First Amendment precedents requiring
governmental non-interference with religion. 565 U.S.
at 181-187. The Court recognized for the first time the
existence of a “ministerial exception” to governmental
regulation of alleged employment discrimination. Id. at
188. But the Court did not undertake to define the full
reach of that exception, finding it “enough * * * to conclude, in this our first case involving the ministerial
exception, that the exception cover[ed]” the religiousschool teacher at issue there, “given all the circumstances of her employment.” Id. at 190.

14
Since Hosanna-Tabor, the federal courts of appeals
to consider the ministerial exception—though not the
Ninth Circuit below—have routinely treated the employee’s performance of a religious function as the most
important consideration. See, e.g., Sterlinski v. Catholic Bishop of Chicago, 934 F.3d 568, 572 (7th Cir. 2019)
(applying exception to a parish organist because “organ
playing serves a religious function in the life of ” the
Church); Lee v. Sixth Mount Zion Baptist Church of
Pittsburgh, 903 F.3d 113, 122 n.7 (3d Cir. 2018) (applying exception to a former pastor’s breach-of-contract
claim and holding that “the ministerial exception ‘applies to any claim, the resolution of which would limit a
religious institution’s right to choose who will perform
particular spiritual functions’ ”) (citation omitted); Fratello v. Archdiocese of New York, 863 F.3d 190, 205
(2d Cir. 2017) (applying exception to a Catholic elementary school principal and holding that “courts should focus primarily on the functions performed by persons
who work for religious bodies”) (brackets, citation, and
internal quotation marks omitted); Cannata v. Catholic
Diocese of Austin, 700 F.3d 169, 180 (5th Cir. 2012) (applying exception to a parish music director because he
“performed an important function” during worship services and thereby “played a role in furthering the mission of the church and conveying its message to its congregants”).
That is the correct test. The ministerial exception
applies to any employee of a religious organization who
performs an “important religious function[ ].” HosannaTabor, 565 U.S. at 192. And in close cases, facts demonstrating that a religious organization sincerely regards
its employee as performing such a function should be
dispositive. For instance, giving an employee a formal

15
title or otherwise holding her out as a religious leader,
requiring religious training or qualifications, imposing
religious conditions in an employment agreement, or
evaluating the employee on religious grounds may show
that the employee plays a religious role within the
organization.
1. Hosanna-Tabor recognized a ministerial exception
grounded in the Religion Clauses’ special solicitude
for religious functionaries

The Court in Hosanna-Tabor, in its first consideration of the matter, unanimously recognized that the
First Amendment requires a ministerial exception to
employment-discrimination claims brought against
religious organizations. 565 U.S. at 188. The Court
explained that “[t]he members of a religious group put
their faith in the hands of their ministers,” and a
government-created cause of action that would punish a
church for failing to retain an unwanted minister would
infringe the First Amendment’s “special solicitude to
the rights of religious organizations” to “select [their]
own ministers.” Id. at 188-189. The Court also explained that “the ministerial exception is not limited to
the head of a religious congregation.” Id. at 190. Rather,
the exception advances both Religion Clauses’ purpose
to protect a religious organization’s right to choose for
itself those who will “personify its beliefs,” “shape its
* * * faith and mission,” or “minister to the faithful.”
Id. at 188-189.
The Court then applied the ministerial exception to
the ADA claim of Cheryl Perich, who had been fired
from her position as a “called” kindergarten teacher at
an Evangelical Lutheran Church and School. HosannaTabor, 565 U.S. at 177-179; see id. at 190-192. The
Court specifically declined “to adopt a rigid formula for

16
deciding when an employee qualifies as a minister.” Id.
at 190. Instead, the Court identified several features of
Perich’s employment relationship that made it especially clear the ministerial exception applied to her case,
without marking any of those facts as either necessary
or sufficient. See id. at 190-194. First, Perich’s Church
“held [her] out as a minister, with a role distinct from
that of most of its members,” by giving her the
title “ ‘Minister’ ” and “periodically review[ing]” her
work in ministry. Id. at 191 (citation omitted). Second,
“the substance reflected in [Perich’s] title” showed that
she had received significant religious training and
had undergone “a formal process of commissioning.”
Id. at 191-192. Third, “Perich held herself out as a minister of the Church by accepting the formal call to religious service, according to its terms.” Id. at 191. And
fourth, “Perich’s job duties reflected a role in conveying
the Church’s message and carrying out its mission.” Id.
at 192. The Court observed that Perich taught both religious and secular subjects in her kindergarten class,
led students in prayer and devotional exercises, and
attended a weekly school-wide chapel service that she
led twice a year. Ibid. “As a source of religious instruction, Perich performed an important role in transmitting the Lutheran faith to the next generation.” Ibid.
2. The ministerial exception applies when an employee’s
job duties or other facts show that the employee
performs an important religious function

The court of appeals below read Hosanna-Tabor to
mean that the ministerial exception does not apply unless a religious organization’s employee bears a close
resemblance to Perich in multiple respects. See 19-348
Pet. App. 10a-15a; 19-267 Pet. App. 2a-3a. The court
reasoned that to apply the ministerial exception based

17
on an employee’s responsibility to teach and model her
religious employer’s faith, without more, would “render
most of the analysis in Hosanna-Tabor irrelevant.”
19-348 Pet. App. 15a. But that reading is not consistent
with this Court’s disavowal of any “rigid formula” for
determining whether the ministerial exception applies,
565 U.S. at 190, or with the Court’s decision to hold open
“whether someone with Perich’s duties would be covered by the ministerial exception in the absence of the
other considerations” discussed in its opinion, id. at 193.
The Court was clear that the considerations it found relevant in Hosanna-Tabor should not be viewed simply as
elements to be counted up. See id. at 193-194. Nor is
the court of appeals’ reading consistent with the concurring Justices’ decision to join the majority opinion even
as they described proposals for further clarifying the
ministerial exception’s contours. See id. at 196-198
(Thomas, J., concurring); id. at 198-206 (Alito, J., concurring). Instead, as multiple courts of appeals have
recognized, see p. 14, supra, the analysis that is most
faithful to Hosanna-Tabor and the purposes of the
First Amendment focuses on whether a religious organization’s employee performs an important religious
function, while giving weight in close cases to facts that
show the organization sincerely views the employee as
performing such a function.
a. The Court recognized in Hosanna-Tabor that one
critical purpose of the First Amendment’s Religion
Clauses is to safeguard the ability of religious groups
freely to practice their faith and pass it on to others.
565 U.S. at 188-189, 196. And the ability of a religious
organization to exercise those freedoms necessarily
depends on the corresponding freedom to select the

18
persons who carry out those ecclesiastical responsibilities. See Kedroff, 344 U.S. at 116. That understanding
of the First Amendment is reflected in several aspects
of this Court’s Hosanna-Tabor opinion.
First, the Court’s description of the purpose of the
ministerial exception emphasized the importance to religious groups of independence in selecting persons to
perform religious functions. The Court described the
history of the First Amendment as reflecting the Framers’ desire to preserve “the essential distinction between civil and religious functions.” Hosanna-Tabor,
565 U.S. at 185 (citation omitted). The Court then explained that the fundamental “purpose” of the ministerial exception is “ensur[ing] that the authority to select
and control those who will minister to the faithful—a
matter ‘strictly ecclesiastical’—is the church’s alone.”
Id. at 194-195 (quoting Kedroff, 344 U.S. at 119). And
the Court reaffirmed that the ministerial exception
ultimately serves to protect “the interest of religious
groups in choosing who will preach their beliefs, teach
their faith, and carry out their mission.” Id. at 196. All
of those formulations principally concern the functions
performed by a religious organization’s employee.
In addition, the Court’s determination that the ministerial exception applied to Perich described many of
the relevant considerations in functional terms. The
Court explained that Perich had been held out as having
a distinctive “role” in her Church; she “was tasked with
performing [her] office” according to religious standards; her position reflected “a significant degree” of
“training” in religious instruction and ministry; she held
herself out as performing a “religious service”; and her
“job duties reflected” an “important role” in “conveying
[her] Church’s message and carrying out its mission.”

19
Hosanna-Tabor, 565 U.S. at 191-192. Furthermore, in
explaining why the Sixth Circuit had erred in not applying the ministerial exception to Perich, this Court cautioned against looking to an employee’s title alone without considering whether “a recognized religious mission
underlie[s] the description of the employee’s position.”
Id. at 193. And the Court also urged lower courts not to
consider the time an employee spends on secular and
religious activities “in isolation, without regard to the
nature of the religious functions performed.” Id. at 194.
Again, the Court emphasized functions over formalities.
b. To be sure, the Court in Hosanna-Tabor did not
rest its decision on Perich’s job duties alone. See 565 U.S.
at 191-192. The Court also considered her title, the substance reflected in that title, and her self-identification
with a form of religious service. Ibid. But those considerations did not erect barriers to applying the ministerial exception to an employee who clearly serves an
important religious function; they merely made Perich’s
case an especially easy one. And importantly, those
additional considerations were relevant to the ministerial exception because they revealed the Evangelical
Lutheran Church’s own understanding of Perich’s religious responsibilities, which itself provided further evidence that Perich performed important religious functions. In Hosanna-Tabor, the way that the Church
understood Perich’s role was reflected most obviously
in her title of “minister,” which had been granted after
a formal process of commissioning. Id. at 191. And the
Court took account of the Church’s view of Perich’s
religious functions in other ways as well, by considering
how the Church “held Perich out,” the fact that it gave
her a “distinct” role in religious instruction, and that it

20
“periodically review[ed]” her performance of “ ‘ministerial responsibilities.’ ” Ibid. (citation omitted).
The additional considerations that this Court described in Hosanna-Tabor may not have been necessary to the outcome of that case, where Perich’s duties
sufficiently established the important religious functions that she performed. See 565 U.S. at 193 (“express[ing] no view on” that question). But those considerations would be more relevant in other, close cases
where an employee’s duties do not obviously or indisputably relate to its employer’s religious mission, and
other features of the employment relationship shed
light on the religious organization’s understanding of
the employee’s role. Furthermore, by taking account of
how a religious organization sincerely views its own
employee, courts applying the ministerial exception can
avoid entanglement with religious questions. See Sterlinski, 934 F.3d at 570 (“Only by subjecting religious
doctrine to discovery and, if necessary, jury trial, could
the judiciary reject a church’s characterization of its
own theology and internal organization.”). And accepting a religious organization’s sincere view of its employee can also help to prevent uncertainty about the
legal test from distorting “the way an organization carrie[s] out what it underst[ands] to be its religious mission.” Corporation of the Presiding Bishop of the Church
of Jesus Christ of Latter-day Saints v. Amos, 483 U.S.
327, 336 (1987).
c. Applying the ministerial exception using a functionfocused analysis also accords with the views of the concurring Justices in Hosanna-Tabor—all of whom joined
the majority opinion.
Justice Alito, joined by Justice Kagan, wrote separately to endorse applying the ministerial exception

21
with a principal “focus on the function performed by
persons who work for religious bodies.” HosannaTabor, 565 U.S. at 198. The concurrence explained that,
because “[t]he First Amendment protects the freedom
of religious groups to engage in certain key religious
activities, including * * * worship services and other
religious ceremonies and rituals, as well as the critical
process of communicating the faith,” the ministerial
exception requires leaving religious groups “free to
choose the personnel who are essential to the performance of these functions.” Id. at 199. The concurring
Justices recognized that, although our Nation has innumerable religious beliefs, structures, and practices, “it
is nonetheless possible to identify a general category of
‘employees’ whose functions are essential to the independence of practically all religious groups,” and the
First Amendment principle of “religious autonomy”
requires applying the ministerial exception to employees who perform any of those functions. Id. at 200.
Such employees “include those who serve in positions of
leadership, those who perform important functions in
worship services and in the performance of religious
ceremonies and rituals, and those who are entrusted
with teaching and conveying the tenets of the faith to
the next generation.” Ibid. The concurring Justices’
view is consistent with applying the ministerial exception by looking to the duties that an employee performs,
as confirmed by the manner in which her religiousorganization employer regards those duties.
Justice Thomas also concurred in Hosanna-Tabor to
emphasize that courts should “defer to a religious
organization’s good-faith understanding of who qualifies as its minister.” 565 U.S. at 196. Justice Thomas
explained that deference is necessary so that courts do

22
not supersede a religious organization’s own judgment
about who is a minister—a question that “is itself religious in nature”—as well as to avoid “disadvantaging
those religious groups whose beliefs, practices, and
membership are outside of the ‘mainstream’ or unpalatable to some.” Id. at 197. By considering how a religious organization views its own employee’s role, see
pp. 19-20, supra, a proper application of the ministerial
exception accounts for Justice Thomas’s concerns that
courts avoid intruding on religious questions or disproportionately burdening minority faiths.
C. The Ministerial Exception Bars
Employment-Discrimination Claims

Respondents’

Under an analysis properly focused on the functions
performed by a religious organization’s employee, the
ministerial exception bars respondents’ employmentdiscrimination claims. Both respondents performed
important religious functions for a religious employer.
By accepting the responsibility to convey the Catholic
Church’s teachings to the next generation, respondents
played a vital role in “minister[ing] to the faithful,”
Hosanna-Tabor, 565 U.S. at 189, through a mission that
the Catholic Church considers one of its oldest and most
important. See Catechism of the Catholic Church 8
(2d ed. May 2016) (affirming that “[c]atechesis,” i.e.,
“education in the faith” of children and others, “is intimately bound up with the whole of the Church’s life”)
(citations and emphasis omitted). And by agreeing to
model the Catholic faith, respondents also “personif [ied]”
the Catholic Church’s “beliefs.” Hosanna-Tabor, 565
U.S. at 188. Moreover, other features of respondents’
employment confirm that the Church indeed viewed
respondents as performing important religious functions.

23
1. Both respondents had as an essential part of their
job duties the responsibility to serve “[a]s a source of
religious instruction” who “performed an important
role in transmitting the [Catholic] faith to the next generation.” Hosanna-Tabor, 565 U.S. at 192.
Both respondents agreed that, as part of their
employment at religious schools, they were expected to
teach and model the Catholic faith effectively throughout their work. Both signed agreements acknowledging
that the mission of the schools is “to develop and promote a Catholic School Faith Community within the philosophy of Catholic education * * * and the doctrines,
laws and norms of the Roman Catholic Church.” 19-267
Pet. App. 32a; see 19-348 Pet. App. 96a. And both
agreed to perform all their “duties and responsibilities”
as teachers “with this overriding commitment.” Ibid.
To that end, both Our Lady and St. James expected
their teachers’ curricula to be “infused” with “Catholic
values” in all subject areas, not just those formally
devoted to religious topics. 19-267 Pet. App. 23a; 19-348
Pet. App. 82a-84a. The teachers also agreed to participate in their religious employers’ “liturgical activities.”
19-267 Pet. App. 21a, 33a; 19-348 Pet. App. 97a.
Respondents fulfilled the obligations in their contracts by, among other things, spending time most days
instructing students on religion as a dedicated subject.
Morrissey-Berru “was responsible for introducing her
students to Catholicism and providing the groundwork
for their religious doctrine.” 19-267 Pet. App. 17a; see
id. at 82a, 86a. The curriculum for Biel’s religion course
“was grounded upon the norms and doctrines of the
Catholic Faith.” 19-348 Pet. App. 83a. Both respondents used those lessons to teach their students about a
host of religious topics, including Catholic doctrine,

24
Catholic prayers, Catholic sacraments, Catholic saints,
the history of the Catholic Church, and Catholic interpretations of scripture. See 19-267 Pet. App. 17a-21a,
87a; 19-348 Pet. App. 70a, 83a.
In addition to formally teaching religion, respondents helped their students practice religion. MorrisseyBerru “led the class in daily prayer, including [the] Hail
Mary[ ], as well as spontaneous prayer.” 19-267 Pet.
App. 21a, 86a-87a. Biel likewise prayed with her students every morning and every afternoon, including the
Lord’s Prayer and the Hail Mary. 19-348 Pet. App. 93a.
Both respondents regularly attended worship services
with their students. 19-267 Pet. App. 88a; 19-348 Pet.
App. 94a. Every month, Biel took her students to Mass
where she prayed with them. 19-348 Pet. App. 82a.
Morrissey-Berru attended weekly Mass with her students, took them to receive the Sacrament of Reconciliation, and took them to religious services such as the
Stations of the Cross. 19-267 Pet. App. 88a.
2. Because respondents so clearly performed religious functions in teaching and modeling the Catholic
faith, as well as guiding their students in prayer and
other religious rituals, the ministerial exception applies
to them. But even if any doubt remained, other features
of respondents’ employment confirm that the Catholic
Church viewed them as performing the important religious functions of “teach[ing] [its] faith, and carry[ing]
out [its] mission.” Hosanna-Tabor, 565 U.S. at 196.
Although respondents were not titled “ministers”—
a term that Catholics typically use only sparingly, see
Hosanna-Tabor, 565 U.S. at 198 (Alito, J., concurring)—
the schools did “h[o]ld [respondents] out” as having a
“role distinct from that of most of [the Church’s] mem-

25
bers” in religious education. Id. at 191 (majority opinion). And respondents “held [themselves] out” as “accepting” that role of “religious service, according to its
terms,” ibid., which at these religious institutions required leadership and instruction in the Catholic faith.
See 19-267 Pet. App. 82a; 19-348 Pet. App. 81a-84a,
96a-97a. Our Lady publicly described its faculty and
staff as “striving to create a spiritually enriched learning environment” that is “grounded in Catholic social
teachings, values and traditions,” 19-267 Pet. App. 8a
(citation omitted), and in which teachers like MorrisseyBerru “model [their] faith” in order to teach “the fundamentals of a spiritual life,” id. at 43a. St. James similarly stated that teachers like Biel would “model, teach,
and promote behavior in conformity to the teaching of
the Roman Catholic Church,” including by applying
“the values of Christian charity, temperance and tolerance” in all their interactions “on behalf of the School.”
19-348 Pet. App. 97a.
In addition, the Catholic Church tied respondents’
employment to important religious functions. Respondents’ employment agreements conditioned their retention as employees on “demonstrat[ing] [an] ability to
develop and maintain a Catholic School Faith Community.” 19-348 Pet. App. 97a; see 19-267 Pet. App. 55a.
Both teachers were “periodically review[ed]” by their
employers, Hosanna-Tabor, 565 U.S. at 191, to assess
their performance at teaching religion. See 19-267 Pet.
App. 23a-24a; 19-348 Pet. App. 32a. And the schools
evaluated teachers on whether they had “visible evidence” of the sacramental traditions of the Catholic
Church in their classrooms. 19-267 Pet. App. 23a; see
19-348 Pet. App. 84a.

26
The schools also asked both respondents to participate in training to enhance the effectiveness of their religious instruction. Biel attended a one-day conference
every year at the Los Angeles Religious Education Congress, part of which covered “ways to better incorporate
God into lessons.” 19-348 Pet. App. 70a. MorrisseyBerru took a course on “the history of the Catholic
Church,” 19-267 Pet. App. 84a, where she “learned
about the Bible” among other topics, id. at 86a.
In all of those ways, the Catholic Church made clear
that it viewed respondents as having an important
ecclesiastical role in providing religious instruction, and
respondents themselves understood and accepted that
role.
D. The Counterarguments Advanced By The Court Of
Appeals And Respondents Lack Merit

1. The Ninth Circuit’s opinions below incorrectly
declined to apply the ministerial exception to respondents. In reaching that conclusion, the court committed
three main errors.
First, the Ninth Circuit reasoned that respondents’
employment resembled that of Cheryl Perich at her
Church “[o]nly” in that all three employees “taught
religion in the classroom,” and the court thought that
resemblance insufficient to apply the ministerial exception. 19-348 Pet. App. 12a; see id. at 15a; 19-267 Pet.
App. 2a-3a. As explained above, the Ninth Circuit was
wrong as a factual matter to find that the similarities
between respondents and Perich did not extend beyond
their job duties. See pp. 24-26, supra. But even if the
court had been correct that respondents resembled
Perich only in the important religious functions that
each performed, those functions—which included teaching religion and modeling religious beliefs, values, and

27
worship practices—were sufficient to apply the ministerial exception. See pp. 16-22, supra; see also HosannaTabor, 565 U.S. at 196 (explaining the “importan[ce]” to
religious groups of “choosing who will preach their
beliefs, teach their faith, and carry out their mission”);
accord id. at 199-200 (Alito, J., concurring) (explaining
that “teaching and conveying the tenets of the faith to
the next generation” is among those functions “essential to the independence of practically all religious
groups”).
Second, the Ninth Circuit refused to apply the ministerial exception to respondents because it concluded
that they did not have “close guidance and involvement”
in “students’ spiritual lives.” 19-348 Pet. App. 13a. Specifically, the Court stated that Biel’s “role in Catholic
religious education was limited to teaching religion
from a book required by the school and incorporating
religious themes into her other lessons,” and her duties
while attending school-wide Mass involved simply keeping her students “quiet and in their seats.” Ibid. That
reasoning is again unsupported by the record, and it
gives insufficient weight to the importance of the role of
religious-school teachers. As both religious employers
here made clear in their employment agreements and
elsewhere, they expected teachers to do much more
than simply recite lessons from a book and keep students quiet during Mass: The teachers taught students
to pray, and they were to model the Catholic faith in
everything they did at school. The schools directed that
Catholic values and thought would influence what the
teachers taught, how they taught it, and how they practiced the faith alongside their students both in daily
prayer and during the liturgy. See pp. 22-26, supra.
The relevant legal point is that respondents taught and

28
encouraged the Catholic faith, not that they used a prearranged curriculum to do so (a practice that may well
vary among religious groups).
By attempting to draw fine distinctions between
respondents’ religious functions and those of Perich in
Hosanna-Tabor, see 19-348 Pet. App. 12a-13a, the Ninth
Circuit impermissibly weighed in on matters of religious faith and doctrine. Civil courts are not equipped
to decide whether it was formative to Catholic students’
“spiritual lives” that their teachers “joined” them in
daily prayer and Mass, as opposed to “orchestrat[ing]”
prayers and religious services as Perich did. 19-348 Pet.
App. 13a. Under the Ninth Circuit’s approach to the ministerial exception, it would be necessary for courts to
determine how important to a religious organization’s
faith were the doctrines that its employee taught, or the
worship practices that its employee modeled. But those
inquiries are just the sort of judicial second-guessing of
religious judgments that this Court has insisted on
avoiding. See Hosanna-Tabor, 565 U.S. at 185-187; see
also id. at 205-206 (Alito, J., concurring); cf. Sterlinski,
934 F.3d at 570 (“If the Roman Catholic Church believes
that organ music is vital to its religious services, and
that to advance its faith it needs the ability to select
organists, who are we judges to disagree?”).
Third, the Ninth Circuit suggested that there is no
need to apply the ministerial exception to teachers at
religious schools, because a religious organization can
successfully defend an employment-discrimination
claim by proving that its decision to terminate or
demote an employee was based on ineffective job
performance—including ineffectiveness at teaching
religious subjects—rather than discrimination on the
basis of a prohibited characteristic. See 19-348 Pet.

29
App. 17a n.6.2 But that suggestion gives insufficient
weight to the Religion Clauses’ “special solicitude” to
the rights of religious groups, over and above the First
Amendment’s protections for other expressive associations. Hosanna-Tabor, 565 U.S. at 189. This Court has
explained that “[t]he purpose of the exception is not to
safeguard a church’s decision to fire a minister only
when it is made for a religious reason”; it is to ensure
that the “church[ ] alone” maintains control over “who
will minister to the faithful.” Id. at 194-195.
Moreover, the manner in which employmentdiscrimination claims are litigated in the absence of the
ministerial exception confirms the need for the exception in cases like these. As the Ninth Circuit stated
below, if a religious school argues that it took an
adverse employment action based on “a religious justification,” the employee would be permitted to argue
that the school’s explanation was a pretext for discrimination, and a district court would “assess * * *
whether the proffered justification was the actual motivation for the termination.” 19-348 Pet. App. 17a n.6.
But for a court to conduct that pretext inquiry, the
“credibility” of the religious school’s “asserted reason”
for the adverse employment decision “could not be
assessed without taking into account” the religious matters on which the employee’s teaching performance was
In Hosanna-Tabor, this Court noted that the ADA contains
defenses permitting religious employers to give preferential treatment in hiring to employees of that religion who perform religious
activities, and permitting religious employers to require employees
to conform to the employer’s religious tenets. 565 U.S. at 180 n.1.
Title VII of the Civil Rights Act of 1964, 42 U.S.C. 2000e et seq.,
also has certain exceptions for religious employers. See 42 U.S.C.
2000e-1(a), 2000e-2(e).
2

30
allegedly deficient. Hosanna-Tabor, 565 U.S. at 205
(Alito, J., concurring). “In order to probe the real reason” for the school’s action, judges and potentially
juries would need testimony about what the Church
believes, how it prays, and how well the teacher succeeded at imparting those religious tenets and practices
to students. Ibid.; cf. Lee, 903 F.3d at 121 (former pastor brought suit for breach of contract after he was terminated for “failing to provide adequate spiritual leadership”). The First Amendment precludes courts from
hearing claims that require resolving such religious
questions. See Catholic Bishop, 440 U.S. at 502 (When
a religious group attests to its “religious creeds,” a
court’s “inquiry into the good faith of the position
asserted by the clergy-administrators and its relationship to the [group’s] religious mission” may itself “impinge on rights guaranteed by the Religion Clauses.”).
2. Respondents, for their part, contend that the ministerial exception does not apply to their claims because
their employers did not require them to be Catholic in
order to hold their teaching positions. See 19-348 Resp.
C.A. Br. 40 & n.10. If a church’s employees are not “required to be members of the church in good standing”
or to “share in [its] same sincerely held religious belief,”
respondents argue, then those employees necessarily
cannot be responsible for personifying the church’s
beliefs or ministering to the faithful. Id. at 40 n.10.
Respondents are incorrect. For several reasons, the
ministerial exception cannot depend on whether a religious institution requires the employment position at
issue to be occupied by a “member” of that religion.
First, as explained above, courts have no warrant to
supersede a religious organization’s assessment that its
employee was ineffective at teaching its religious tenets

31
or modeling its religious values, pp. 28-30, supra—and
a court’s interference with that type of religious judgment is problematic regardless of whether the employee
shares her employing organization’s faith. Cf. Gonzalez, 280 U.S. at 16 (“Because the appointment is a canonical act, it is the function of the church authorities to
determine what the essential qualifications of a chaplain
are and whether the candidate possesses them.”).
Second and relatedly, conditioning the ministerial
exception on membership would constrain the exception
in ways that are inconsistent with the First Amendment’s purposes. In some faith traditions, membership
may not extend beyond a single congregation. See, e.g.,
Southern Baptist Convention, Position Statements
(affirming “the autonomy of the local church” such that
“[e]ach church is free to determine its own membership
and to set its own course under the headship of Jesus”),
http://www.sbc.net/aboutus/positionstatements.asp. If
an autonomous Baptist congregation hires a pastor
from a different congregation to serve in an interim role
of preaching and leadership, the ministerial exception
applies to that interim pastor because the congregation
has “put their faith in [his] hands,” Hosanna-Tabor,
565 U.S. at 188—even though the interim pastor might
not be considered a “member” of the “same” church.
The same principle should apply when a religious school
decides what degree of religious association is sufficient
to qualify a teacher to pass on its faith. If a particular
religious group determines that it can effectively teach
its beliefs through a teacher who is willing to model
those beliefs for students even if she is not herself a
member of the same faith, that religious judgment warrants respect. “Religious autonomy means that reli-

32
gious authorities must be free to determine who is qualified to serve in positions of substantial religious importance.” Id. at 200 (Alito, J., concurring); see id. at
197 (Thomas, J., concurring).
Third, it will frequently be difficult for courts to determine who constitutes a “member * * * in good
standing” of a particular church, or who shares that
church’s “same” religious belief, 19-348 Resp. C.A. Br.
40 & n.10, without becoming impermissibly entangled in
matters of religious “faith and doctrine.” HosannaTabor, 565 U.S. at 186 (quoting Kedroff, 344 U.S. at
116). If a Conservative Jewish day school is willing to
employ an Orthodox Jew as a teacher, has the school
required its teachers to share its “same” religious belief ? Or if a Catholic school would hire a baptized Catholic as a teacher even though she does not regularly
attend Sunday Mass, or would hire a teacher who
attends Mass but does not regularly receive the Sacrament of Reconciliation, has the school required its
employees to be Catholics “in good standing”? “[T]he
mere adjudication of such questions would pose grave
problems for religious autonomy.” Id. at 205-206 (Alito,
J., concurring).
Sometimes, the question of “membership” is disputed among religious believers. See, e.g., Watson,
80 U.S. (13 Wall.) at 727 (declining to interfere in a dispute between factions of the Walnut Street Presbyterian Church in Louisville, Kentucky). Indeed, the parties to this case appear to dispute some of the facts surrounding whether Morrissey-Berru was required to be
a Catholic in good standing in order to teach religion at
Our Lady. Our Lady’s employment agreement stated
that “[i]f you are Roman Catholic you must be in good

33
standing with the Church,” J.A. 91, and the school principal testified that “[t]he ideal candidate [for a teaching
position] is an actively practicing Catholic” and that “to
teach religion at the school, you need to be a Catholic,”
19-267 Pet. App. 56a-57a. But the principal also testified that “[e]xceptions can be made,” id. at 57a, and
Morrissey-Berru herself testified that she is “not currently a practicing Catholic,” 19-267 Resp. App. 2a.
Those ambiguities confirm the deficiency of respondents’ proposed test for the ministerial exception. If an
employee and her church disagree about whether she is
a member in good standing, there is no neutral way for
a court to resolve the matter. Cf. Kedroff, 344 U.S. at
122 (Frankfurter, J., concurring) (“Legislatures have
* * * no such power * * * to define religious obedience.”).
Fourth and finally, respondents’ test for the ministerial exception would seriously risk disadvantaging religious groups that are “outside of the ‘mainstream,’ ”
Hosanna-Tabor, 565 U.S. at 197 (Thomas, J., concurring), because minority religions are likely to have a
harder time than Roman Catholics or Lutherans finding
certified teachers who are also adherents to their faith.
3. The Ninth Circuit’s and respondents’ diminished
conception of the ministerial exception would create a
significant risk of governmental interference in religious practice—which this Court has sought to avoid
since the Founding. Religiously affiliated schools would
be forced to accept religious instructors they do not
want (if plaintiffs availed themselves of a reinstatement
remedy where available), or else to pay a penalty for
terminating unwanted religious instructors, potentially
in the form of frontpay, backpay, damages, and attorney’s fees. See Hosanna-Tabor, 565 U.S. at 194. But
“the Free Exercise Clause protects against ‘indirect

34
coercion or penalties on the free exercise of religion, not
just outright prohibitions.’ ” Trinity Lutheran Church
of Columbia, Inc. v. Comer, 137 S. Ct. 2012, 2022 (2017)
(citation omitted). The First Amendment does not permit the government to use private remedies to disturb
religious organizations’ choice of “who will preach their
beliefs, teach their faith, and carry out their mission.”
Hosanna-Tabor, 565 U.S. at 196.
At bottom, respecting the Constitution’s “essential
distinction between civil and religious functions”
requires applying the ministerial exception to religiousschool teachers like respondents, who were hired by
their Church to “personify its beliefs” and “minister to
the faithful.” Hosanna-Tabor, 565 U.S. at 185, 188-189
(citation omitted). Religious schools “put their faith in
the hands of ” teachers like respondents to model it,
teach it, and thereby pass it on to the next generation.
Id. at 188. Just as the First Amendment precludes the
government from directing what doctrines are taught in
a religious school, the First Amendment leaves each
religious denomination free to determine how those
doctrines are taught, and by whom.

35
CONCLUSION

The judgments of the court of appeals should be
reversed.
Respectfully submitted.

SHARON FAST GUSTAFSON
General Counsel
RACHEL N. MORRISON
Attorney
Equal Employment
Opportunity Commission

FEBRUARY 2020

NOEL J. FRANCISCO
Solicitor General
ERIC S. DREIBAND
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
ALEXANDER V. MAUGERI
Deputy Assistant Attorney
General
MORGAN L. RATNER
MICHAEL R. HUSTON
Assistants to the Solicitor
General
ERIC W. TREENE
Attorney

